OIG Investigative Reports, Press Release Albany, Georgia July 15, 2013 - Embezzlement Of Government Property And Aggravated Identity Theft
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
MIDDLE DISTRICT of GEORGIA
NEWS
Embezzlement Of Government Property And Aggravated Identity Theft
FOR IMMEDIATE RELEASE
July 15, 2013
Michael J. Moore, United States Attorney for the Middle District of Georgia, announced the sentencing of Dontreal Jenkins, age 31, and Trevayne Jones, age 37, both residents of Albany, Georgia, on July 11, 2013, before the Honorable W. Louis Sands, United States District Judge for the Middle District of Georgia.
On January 11, 2013, a jury found Mr. Jenkins and Mr. Jones guilty of Conspiracy to Embezzle Public Monies, Embezzlement of Government Property, and Aggravated Identity Theft.  In addition, Mr. Jenkins was found guilty of Mail and Wire Fraud Conspiracy and Mr. Jones was found guilty of Misleading Statements.
Judge Sands sentenced Mr. Jenkins and Mr. Jones to each serve one hundred thirty-three (133) months imprisonment, followed by three (3) years supervised release, a $400.00 mandatory assessment fee, and restitution in the amount of $713,000.00 to the victim.  In addition, Mr. Jenkins was ordered to pay restitution in the amount of $335,693.00 to the U.S. Department of Education.
Court records revealed that Mr. Jenkins and Mr. Jones both participated in a scheme to steal and cash United States Treasury checks.  In addition, they committed identity theft by unlawfully using the names and signatures of the intended payees without the permission of the payee.
“My office will continue to use the necessary resources to prosecute individuals who steal from the taxpayers,” said U.S. Attorney Michael Moore.  “When these defendants stole from our student aid program, they didn’t just take money, they threatened the dreams of deserving students.”
“Federal student aid exists so that individuals can pursue and make their dream of a higher education a reality.  As the law enforcement arm of the U.S. Department of Education, ensuring that those who steal student aid or game the system for their own selfish purposes are stopped and held accountable for their criminal actions is a big part of our mission,” said Yessyka Santana, Special Agent in Charge of the U.S. Department of Education Office of Inspector General's Southern Regional Office.  "That’s why I’m proud of the work of OIG special agents and our law enforcement colleagues for holding these individuals accountable for their criminal actions.”
The case was investigated by the United States Secret Service and the United States Department of Education, Office of Inspector General.  The case was prosecuted by Assistant United States Attorney Jim Crane.
Inquiries regarding the case should be directed to Sue McKinney, Public Affairs Specialist, United States Attorney's Office at (478) 621-2602.
Top
Printable view
Last Modified: 07/18/2013
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov